     COMMODITY FUTURES TRADING COMMISSION

        SEMIANNUAL REPORT
              OF THE


       OFFICE OF THE
     INSPECTOR GENERAL




.i




         FOR THE PERIOD ENDING SEPTEMBER 30, 2007
                            u.s. COMMODITY FUTURES TRADING COMMISSION
                                                  Three Lafayette Centre
                                       1155 21st Street, NW, Washington, DC 20581
                                               Telephone: (202) 418-5110
                                                Facsimile: (202) 418-5522
                                                          www.cftc.gov


   Office of the                                October 30, 2007
Inspector General




      TO:            Walter Lukken
                     Acting Chairman

      FROM:          A. Roy Lavik     .ac. /~
                     Inspector General

      SUBJECT:       Semiannual Report of the Office of the Inspector General

             Attached is the Semiannual Report of the Office of the Inspector General for the period
      from April 1,2007 through September 30,2007. This report is submitted to you in accordance
      with the requirements of Section 5 ofthe Inspector General Act of 1978, as amended.

              I appreciate your support of this office.

      Attachment
             OFFICE OF THE INSPECTOR GENERAL
          COMMODITY FUTURES TRADING COMMISSION

                              SEMIANNUAL REPORT
                              FOR THE PERIOD FROM
                    April 1, 2007 THROUGH September 30, 2007



                              TABLE OF CONTENTS


SUMMARY OF OIG ACTIVITIES [including a description of any significant problems, abuses,
    and deficiencies and a description of OIG recommendations for corrective action
    (Mandated by Section Sea) (1) and (2) ofthe Act)]                                 1
    AlJDITS                                                                           1
    INVESTIGATIONS                                                                    2
    LEGISLATIVE AND REGULATORY REVIEWS                                                2
    OTHER REVIEWS                                                                     3

OIG RESPONSIBILITIES                                                                             3

OIG RESOURCES                                                         ,                          4

. CFTC PROGRAMS AND OPERATIONS                                                                   .4

COMPLETED WORK .:                                                                            4
    AlJDITS [including a list of each audit report issued and a summary of each particularly
    significant report (Mandated by Section 5(a)(6) and (7) of the Act)].                   .4
    INVESTIGATIONS                                                                           6
    LEGISLATIVE AND REGULATORY REVIEWS                                                       6
    OTHER REVIEWS                                                                            7

AlJDIT REPORTS OVER SIX MONTHS OLD                                                               8

       CORRECTIVE ACTION NOT COMPLETED [including an identification of each
       significant recommendation described in previous semiannual reports on which
       corrective action has not been completed (Mandated by Section 5(a)(3) ofthe Act)] ........ 8

       CORRECTIVE ACTION COMPLETED                                                               8
       MANAGEMENT DECISION NOT MADE [including a summary of each audit
       report issued before the commencement of the reporting period for which no management
       decision has been made by the end of the reporting period (including
       the date and title of each such report), an explanation of the reasons such a
       management decision has not been made, and statement concerning the desired timetable
       for achieving a management decision on each such report (Mandated by Section 5(a)(IO)
       of the Act)]                                                                     8, 11

SUMMARY OF MATTERS REFERRED TO PROSECUTIVE AUTHORITIES and
    the prosecutions and convictions which have resulted (Mandated by
    Section 5(a)(4) of the Act)                                                             8

SUMMARY OF EACH REPORT MADE TO THE AGENCY HEAD
    under Section 6(b)(2) concerning information or assistance unreasonably
    refused or not provided (Mandated by Section 5(a)(5) of the Act)                        8

REVISED MANAGEMENT DECISIONS [including description and explanation of
     the reasons for any significant revised management decision made during the
     reporting period (Mandated by Section 5(a)(lI) of the Act)].                           8

INSPECTOR GENERAL DISAGREEMENT [including information concerning any
     significant management decision with which the Inspector General is in
     disagreement (Mandated by Section 5(a)(12) ofthe Act)]                                 9

CURRENT AUDITS                                                                              9

GAO LIAISON                                                                                12

STRATEGIC PLAN                                                                             12

CONTACTING THE OFFICE OF THE INSPECTOR GENERAL.                                            17

TABLE 1 -- REPORTS ISSUED WITH QUESTIONED COSTS
     (Mandated by Section 5(a)(8) ofthe Act)                                               18

TABLE 2 -- REPORTS ISSUED WITH RECOMMENDATIONS THAT FUNDS BE PUT
     TO BETTER USE (Mandated by Section 5(a)(9) of the Act)                                19




                                             11
                    INDEX OF IG ACT REPORTING
                          REQUIREMENTS

Section 4(a)(2)        Review oflegislation and regulations                              6

Section 5(a)(1)        Significant problems, abuses, and deficiencies                    1

Section 5(a)(2)        Recommendations with respect to significant problems              1

Section 5(a)(3)        Significant recommendations that have not been completed          8

Section 5(a)(4)        Matters referred to prosecutorial authorities                     8

Section 5(a)(5)        Summary of instances where information was refused                8

Section 5(a)(6)        Completed audit reports                 '"      ,                 .4

Section 5(a)(7)        Significant audit reports                                         .4

Section 5(a)(8)       Statistical Table-Questioned Costs                                18

Section 5(a)(9)       Statistical Table-Funds Recommended for Better Use                19

Section 5(a)(1 0)     Audit reports lacking management decision                       8, 11

Section 5(a)(II)      Significant revised management decisions                            8

Section 5(a)(12)      Significant management decisions where the IG disagrees             9

Section 5(a)(13)      Information described under the Federal Financial Management.       ..
......                Improvement Act of 1996 ,                                           5

Section 6(b)(2)       Summary of reports to Chairman where assistance was refused         8




                                          11I
                       SUMMARY OF OIG ACTIVITIES

AUDITS

        The primary objectives ofthe Office of the Inspector General (OIG) of the Commodity
Futures Trading Commission (Commission, CFTC) are to help promote long-term efficiency and
effectiveness in the administration and operation of the Commission and to protect against fraud,
waste, and abuse. This reporting period's OIG audit activities, which are listed below, reflect
these objectives. During this reporting period, the OIG audits uncovered no significant problems
requiring recommendations.

Completed Audits

       Audit of Compliance with the Federal Managers' Financial Integrity Act, FMFIA. In
       support ofOMB Circular A-123 (Revised), the Inspector General evaluates, provides
       technical assistance, and advises the agency head as to whether the agency's review and
       evaluation process was conducted in accordance with the circular's requirements. (For
       additional details, see page 5.)

       Evaluation ofthe CFTC Information Security Management Act, FISMA. The Federal
       Information Security Management Act requires the Inspector General or his designee to
       perform annual independent evaluations ofthe information security program and
       practices of the agency. (For additional details, see page 5.)

Current Audits

        The following are the audits being conducted during the current reporting period and
continuing into the next reporting period. (For additional details, see the section on current
audits beginning on page 9.)

       Audit of CFTC Financial Statements for Fiscal Year 2007. In FY 2002, Congress passed
       the Accountability of Tax Dollars Act. The Act requires the CFTC, along with numerous
       other Federal entities, to have its financial statements audited annually. To this end, the
       OIG has engaged a contractor to provide the audit effort required to enable the contractor
       to render an opinion on the agency's financial statements for Fiscal Year 2007 in
       accordance with generally accepted auditing standards, Government Auditing Standards,
       and OMB Bulletin 01-02. (For additional details, see page 9.)

       Updating of the Review of the Need for a Los Angeles Office. The Review of the Need
       for a Los Angeles Office was completed approximately one year ago. Because of
       budgetary constraints, the Chairman was not in a position to act on the recommendations
       in the report. Now that the budgetary situation may be easing, opportunity for a decision
       could be forthcoming. To facilitate this decision, the Office of the Inspector General has
       continued to update the infonnation it gathered for the initial report. (For additional
       details, see page 11.)
        Review of Agency Use of Contractors. Over the past five fiscal years, the agency has'
        increased its reliance on contractors to replace some CFTC employees and to extend the
        capabilities of others. The objectives ofthis review are to determine whether the agency
        has effectively employed contractors to complement its staff, and to present the Chairman
        with a complete picture ofthe Commission's use of contractors. During this reporting
        period, the OIG completed its review of current contracts and contracting information,
        and began conducting interviews with relevant individuals. (For additional details, see
        page 11.)


INVESTIGATIONS

         The Inspector General Act of 1978, as amended, provides that the Inspector General may
 receive and investigate complaints or information from the Commission's employees concerning
.the possible existence of an activity constituting a violation of law, rules or regulations, or
 mismanagement, abuse of authority, or gross waste of funds, or a substantial and specific danger
 to the public health and safety.

       No investigations were pending as of the beginning ofthe reporting period, and the OIG
opened no investigations during the period. (See the section on investigations beginning on
page 6.)


LEGISLATIVE AND REGULATORY REVIEWS

        The OIG reviews proposed and final CFTC regulations, legislation, and selected
exchange rules using the following basic criteria: whether the agency: (1) has identified
specifically the problem(s) to be addressed by the proposal; (2) has defined through case study or
data analysis a clear link between the proposed solution and the identified problem(s); (3) has
specified clearly the means to effectively and efficiently enforce the proposal; (4) has assessed
the likely efficiency and effectiveness of alternative solutions; (5) can reasonably document that
the proposal will yield positive net benefits over the long term; and (6) has met the requirements
of the Regulatory Flexibility Act and the Paperwork Reduction Act.

        The Regulatory Flexibility Act requires the agency to evaluate the impact of its
regulations on small entities. The Paperwork Reduction Act requires the agency to manage
effectively and efficiently its information collections so that they are the least burdensome
necessary to achieve the stipulated objectives.

Legislative Activities

         the Inspector General continues to be involved in legislative activities pertaining to both
the CFTC and the IG community. The IG serves on the legislation committee for the Executive
Council on Integrity and Efficiency, which discusses and provides guidance on pending
legislation affecting the IG community. During this reporting period Congressional staffs were
contacted about various CFTC and IG related issues.


                                                 2
OTHER REVIEWS

       Review of the CFTC Exchange Data Base System, EDBS The Exchange Data Base
       System, a system developed in the mid-1980s, processes and maintains information
       concerning trading activity on designated contract markets. We reviewed EDBS in
       conformance with standards promulgated by the National Institute of Standards and
       Technology. Our field work was completed in September 2007 (For additional details,
       see page 7).

       Peer Review During this period, the National Endowment for the Humanities Office of
       the Inspector General completed a review of the system of quality control for the audit
       function within the OIG. The peer review was completed in September 2007 (For
       additional details, see page 7).



                             OIG RESPONSIBILITIES

       The Office of the Inspector General in the Commodity Futures Trading Commission was
created in accordance with the Inspector General Act of 1978 (P.L. 95-452), as amended by the
Inspector General Act Amendments of 1988 (P.L. 100-504). The OIG was established to create
an independent unit to:

       •   Promote economy, efficiency, and effectiveness in the administration of CFTC
           programs and operations and detect and prevent fraud, waste, and abuse in such
           programs and operations;

       •   Conduct and supervise audits and, where necessary, investigations relating to the
           administration of CFTC programs and operations;

       •   Review existing and proposed legislation, regulations, and exchange rules and make
           recommendations concerning their impact on the economy and efficiency of CFTC
           programs and operations or the prevention and detection of fraud and abuse; and

       •   Keep the Chairman and Congress fully informed about any problems or deficiencies
           in the administration of CFTC programs and operations and provide
           recommendations for correction of these problems or deficiencies.

       Given that the CFTC does not have extensive contracts or grant making authority, the
OIG's efforts have been focused on the review of internal CFTC operations and the monitoring
oflegislative and regulatory proposals.




                                               3
                                      OIG RESOURCES

        The OIG consists of the Inspector General, two professional staff members, and a
secretary. In April 2007, one professional staff member retired. A new professional staff
member was hired, and began work on June 11,2007. The present Inspector General assumed
his position on October 7, 1990.

        The OIG, on December 4, 1989, signed a Memorandum of Understanding with the Office
of the General Counsel (OGC). This Memorandum details the procedures that are used to
provide the OIG with OGC legal services. Because the new professional staff member who
began in June 2007 is an attorney, the OIG will not be utilizing the 1989 Memorandum for the
time being.



                  CFTC PROGRAMS AND OPERATIONS

       Congress created the Commodity Futures Trading Commission in 1974 as an
independent agency with the mandate to regulate commodity futures and options markets in the
United States. The Commission's mandate was renewed and/or expanded in 1978, 1982, 1986,
1992, and 1995. In December 2000, the Commission was reauthorized by Congress and the
President through Fiscal Year 2005 with the passage of the Commodity Futures Modernization
Act of2000 (CFMA).

         The CFMA transformed the Commission from a front-line regulatory agency to an
oversight regulator. Although the Commission's approach to regulation has changed, the
CFTC's mission has not. The CFTC continues to be responsible for fostering the economic
utility of futures markets by encouraging their competitiveness and efficiency, ensuring their
integrity, and protecting market participants against manipulation, abusive trade practices, and
fraud. Through effective oversight regulation, the CFTC enables the commodity futures markets
better to serve their vital function in the nation's economy -- providing a mechanism for price
discovery and a means of offsetting price risks.



                                COMPLETED WORK

AUDITS

       The OIG is required to conduct, supervise and coordinate audits of CFTC programs and
operations and to ensure that the audits are conducted in accordance with generally accepted
government auditing standards. The OIG is also required to recommend changes to existing and



                                               4
proposed CFTC programs and operations to promote economy, efficiency, and effectiveness and
to prevent and detect fraud and abuse.

          The purpose of these audits is to ensure that:

          •   Funds have been expended in a manner consistent with related laws, regulations, and
              policies;

          •   Resources have been managed effectively and efficiently;

          •   Stipulated program objectives have been achieved; and

          •   Resources have been safeguarded.

1.        Audit of Compliance with the Federal Managers' Financial Integrity Act, FMFIA

Objective.

       In support ofOMB Circular A-123 (Revised), the Inspector General evaluates, provides
technical assistance, and advises the agency head as to whether the agency's review and
evaluation process was conducted in accordance with the circular's requirements.

Status.

       The OIG reviewed all of the draft internal control reviews produced by agency staff and
provided comments to the originating divisions. The OIG offered its services to the CFTC
Intemal Control Committee as advisor and consultant on conducting and reporting on
vulnerability assessments and internal control reviews. The OIG reported the results of its
review of the final submissions to the Chairman in its annual assurance letters to the Chairman.

2.        Evaluation of the CFTC Information Security Management Act, FISMA

Objective.

        The Federal Information Security Management Act requires the Inspector General or his
designee to perform annual independent evaluations ofthe information security program and
practices of the agency.

Status.

       To provide a comprehensive review of the Commission's security program, Office of
Information Technology Services (OITS) and OIG worked jointly in gathering and interpreting
information relating to the CFTC information security program. Using the infonnation supplied
by OITS staff, a contractor, and the program managers, the Inspector General reviewed and
analyzed the information and responded in tabular form to the questions raised by the OMB
Guidance. Results ofthis effort were transmitted to the CFTC's ChiefInfonnation Officer (CIO)


                                                    5
on September 6,2007, for combination with the CIO's assessment and inclusion in the
Chairman's report to OMB.


INVESTIGATIONS

        The Inspector General Act of 1978, as amended, provides that the Inspector General may
receive and investigate complaints or information from the Commission's employees concerning
the possible existence of an activity constituting a violation of law, rules or regulations, or
mismanagement, abuse of authority, or gross waste of funds, or a substantial and specific danger
to the public health and safety.

      No investigations were pending as of the beginning of the reporting period, and the OIG
opened no investigations during the period.


LEGISLATIVE AND REGULATORY REVIEWS

        As specified in Section 4(a)(2) of the Inspector General Act of 1978, the OIG reviews the
impact of existing and proposed legislation and regulations on CFTC programs and operations
and makes recommendations regarding more effective or efficient alternatives or protections
against fraud and abuse. The OIG also reviews selected exchange rule proposals and changes.

      The OIG notified the responsible Divisions as to any concerns with draft and final
documents relating to legislation, rules or investigations. Formal comments were not filed with
the Commission.

Rule Reviews Initiated In Previous Reporting Periods

        There were no rule reviews initiated in previous reporting periods which were continued
into this reporting period.

Rule Reviews Initiated This Reporting Period

        The OIG has reviewed the numerous rules required by the CFMA. The CFMA altered
the relationship of the Commission to the futures industry in many regards and the rules sought
to reflect this change.

Legislative Activities

        The Inspector General continues to be involved in legislative activities. The IG serves on
the legislation committee for the Executive Council on Integrity and Efficiency, which
comments on proposed amendments to the IG Act, and other legislation affecting the IG
community. In addition, contact has been made with Congressional staff concerning various
agency and IG issues.



                                                6
OTHER REVIEWS

1.   Review of the CFTC Exchange Data Base System, EDBS.

The Exchange Data Base System, a system developed in the mid-l 980s, processes and maintains
infonnation concerning trading activity on designated contract markets. EDBS daily receives
trade data from various exchanges, and is used by both the Division of Market Oversight and the
Division of Enforcement for trading analysis and surveillance. It is also used by other divisions
to respond to Commission and Congressional requests.

We reviewed EDBS in confonnance with standards promulgated by the National Institute of
Standards and Technology. Specifically, we examined controls relating to: boundary protection
(i.e., assuring that the infonnation system monitors and controls communications at the external
boundary of the system and at key internal boundaries within the system); security assessments;
system security plan updates; contingency plans; and periodic maintenance. Our field work was
completed in September 2007.

2.     Peer Review.

During this reporting period, the National Endowment for the Humanities Office ofInspector
General (NEH OIG) reviewed the OIG's system of quality control for its audit function. The
NEH OIG concluded that

       ...the system of quality control for the audit function ofCFTC OIG in effect for
       the year ended September 30, 2006, has been designed to meet the requirements
       of the quality control standards established by the Comptroller General of the
       United States for a Federal Goverrnnent audit organization and was substantially
       complied with during the year ended to provide the OIG with reasonable
       assurance of confonning with applicable auditing standards, policies, and
       procedures.

The NEH OIG made four suggestions for improvement that "did not impact on our opinion."
First, NEH OIG suggested that training documentation be centrally maintained within CFTC
OIG and that all audit staff take care to attain 80 hours of continuing professional education (on a
bi-yearly basis). All CFTC OIG staff did not complete this requirement due in part to budgetary
constraints, and retirement. Second, the NEH OIG recommended that the CFTC OIG should
document the applicability of and work perfonned relating to internal controls, relevant to each
audit. Third, the NEH OIG recommended that CFTC OIG amend its internal policy on audit
workpapers to identify that independent referencing is completed during supervisory review of
audit workpapers. Fourth and finally, the NEH-OIG recommended enhancements to the process
by which CFTC OIG utilizes OGC attorneys.

CFTC OIG implemented the first three recommendations immediately. The hiring of legal
counsel in June 2007 essentially mooted the fourth recommendation.



                                                7
              AUDIT REPORTS OVER SIX MONTHS OLD

CORRECTIVE ACTION NOT COMPLETED

       There were no instances of audit reports over six months old where corrective action had
not been completed.


CORRECTIVE ACTION COMPLETED

        There were no instances of reports issued before the commencement of the reporting
period for which corrective action had been completed by the end of the reporting period.


MANAGEMENT DECISION NOT MADE

       There is one instance of a report issued before the commencement of the reporting period
for which a management decision had not been made by the end of the reporting period. The
Chairman is continuing to examine the issue.



                SUMMARY OF MATTERS REFERRED TO
                   PROSECUTIVE AUTHORITIES

       No matters were referred to prosecutive authorities during the reporting period.



                SUMMARY OF EACH REPORT MADE TO
                      THE AGENCY HEAD

        No reports were made to the agency head under section 6(b)(2) concerning information
or assistance unreasonably refused or not provided (mandated under section 5(a)(5) of the Act).



                  REVISED MANAGEMENT DECISIONS
       No management decisions were revised during the reporting period.




                                               8
                    INSPECTOR GENERAL DISAGREEMENT

      The Inspector General does not disagree with any management decisions on OIG
recommendations.



L-                                    C_U_RRE
                                          __  N_T_A_U_D_I_TS                                        I
           The audit agenda and priorities for the OIG are determined based on the following
factors:

           •   Statutory and regulatory requirements;

           •   Adequacy of internal control systems as indicated by vulnerability assessments and
               internal control reviews recommended by OMB Circular A-123;

           •   Changes in the program conditions or particular vulnerability of the organization,
               program, activity, or function to problems or deficiencies;

           •   Current and potential dollar magnitude and likely benefits ofa review on the
               efficiency or effectiveness of CFTC programs and operations;

           •   Management priorities and improvements that may be possible;

           •   Results of audits of CFTC programs and operations by other Federal agencies; and

           •   Availability of audit resources and the potential opportunity costs to the agency.

       The audit agenda and summary of progress for each audit, which has not yet been
completed, is summarized below. New agenda items periodically will be added, as appropriate,
along with a description of the audit objective for each.

1.         Audit of CFTC Financial Statements for Fiscal Year 2007.

Objectives.

        In FY 2002, Congress passed the Accountability of Tax Dollars Act. The Act requires
the CFTC, along with numerous other Federal entities, to have its financial statements audited
annually. To this end, the OIG has engaged a contractor to provide the audit effort required to
enable the contractor to render an opinion on the agency's financial statements for Fiscal Year
2007 in accordance with generally accepted auditing standards, Government Auditing Standards,
and OMB Bulletin 01-02.



                                                    9
The specific objectives of this audit are to detennine whether:

       (1) The financial statements present fairly the financial position of the Commodity
       Futures Trading Commission in accordance with generally accepted accounting
       principles (GAAP) as promulgated by the Federal Accounting Standards Advisory Board
       (FASAB). The six financial statements, along with all corresponding notes to be audited
       include: (a) Balance Sheet; (b) Statement of Net Cost; (c) Statement of Changes in Net
       Position; (d) Statement of Budgetary Resources; (e) Statement of Financing; and (f)
       Statement of Custodial Activity.

       (2) Management's assertions about the effectiveness of its internal controls for achieving
       internal control objectives described in AU Section 319 and the Federal Managers
       Financial Integrity Act (FMFIA) are fairly stated in all material respects. The contractor
       shall make this detennination in part by obtaining an understanding ofthe internal control
       policies and procedures and assessing the level of control risk relevant to all significant
       cycles, classes of transactions, and account balances. For those significant control
       policies and procedures that have been properly designed and placed in operation, the
       contractor shall perfonn sufficient tests to provide reasonable assurance as to whether the
       controls are effective and working as designed.

       The independent public accountant (IPA) will limit its internal control testing to those
       controls necessary to achieve the objectives described in OMB Bulletin 01-02. Further,
       the IPA is not required to test all internal controls relevant to operating objectives as
       broadly defined by the Federal Manager's Financial Integrity Act of 1982, such as those
       controls relevant to achieving efficient operations.

       With respect to internal controls related to perfonnance measures reported in the
       accountability report, the IPA will obtain an understanding of the design of significant
       internal controls relating to the existence and completeness assertions, as required by
       OMB Bulletin 01-02. The procedures are not required to provide assurance on internal
       controls over reported perfonnance measures.

       (3) The agency has complied with selected provisions of laws and regulations identified
       by OMB Bulletin 01-02 or the Inspector General, noncompliance with which could have
       a direct and material effect on the detennination of financial statement amounts. The IP A
       will limit its tests of compliance to these provisions and need not test compliance with all
       laws and regulations applicable to the CFTC.

        (4) The infonnation in the "Overview of the Reporting Entity" is consistent in content
        and presentation with the infonnation in the principal statements and the related notes
        consistent with Statements on Auditing Standards (SAS) No.8, Other Information in
        Documents Containing Audited Financial Statements.




                                                 10
Status.

       An independent public accounting finn was first selected on January 15, 2004 to
complete the CFTC Financial Statement Audits for up to five successive years. On March 19,
2007, the Fiscal Year 2007 audit began with a meeting with senior agency managers. Further
meetings and reviews have taken place throughout this reporting period, while work on the audit
is ongoing. The final audit report is to be delivered to the Office of the Inspector General on
November 9,2007.

2.        Updating of the Review of the Need for a Los Angeles Office.

Objective.

        The Review of the Need for a Los Angeles Office was completed over one year ago.
Because of budgetary constraints, the Chairman was not in a position to act on the
recommendations in the report. With the arrival of new Commissioners and anticipated
appointment of a new chairman, and now that the budgetary situation may be easing, opportunity
for a decision could be forthcoming. To facilitate this decision, the Office of the Inspector
General decided to update the information it gathered for the initial report.

Status.

       To update the information in the report, the Office of the Inspector General collected and
analyzed staffing and workload data for the Division of Enforcement for eight months in 2006
and 2007.

       The Office of the Inspector General also interviewed current and former CFTC Western
Regional Office (WRO) staff members to determine if the opinions expressed on the availability
of CFTC-related work during their tenures in the WRO and their opinions of the current
availability of CFTC-related work in the area formerly serviced by WRO had changed. We
found no change in status to indicate a reduced need for a revived WRO in Los Angeles.

3.        Review of Agency Use of Contractors.

Objective.

         Over the past five fiscal years the agency has increased its reliance on contractors to
replace some CFTC employees and to extend the capabilities of others. The objectives of this
review are to determine whether the agency has effectively employed contractors to complement
its staff and to present the Chairman with a complete picture of the Commission's use of
contractors.



       The Office of Financial Management has supplied the OIG with extensive data on
contracts employed by CFTC during FY 2002, 2005, 2006, and 2007. The Office of the


                                                 11
Inspector General reviewed and analyzed this data to detennine whether the agency has received
the services for which it contracted, and has selected two contracts for detailed review. In
addition, the Office of the Inspector General has conducted numerous interviews during this
reporting period to obtain background infonnation on the contracts and staff opinions on the
effectiveness of the contract process, as well as contractor perfonnance. Interviews will be
ongoing during the remainder of this year, and we anticipate issuance of our final report during
the next reporting period.



                                      GAO LIAISON

        The DIG is charged with providing policy direction for, and conducting, supervising, and
coordinating audits and investigations relating to CFTC programs and operations. In addition,
the GIG is required to recommend policies for, and conduct, supervise, and coordinate with other
Federal agencies, state and local governmental agencies, and nongovernmental entities, audits,
investigations, and evaluations regarding the economy, efficiency, and effectiveness of CFTC
programs and operations.

       GAO also conducts audits of CFTC activities, and DIG plans its audits so as not to
duplicate GAO's efforts. Moreover, DIG in its audit activities identifies the goals of each audit
and the methods of reaching the goals so as to minimize the requirements placed on CFTC
resources. During this reporting period the CFTC-OIG collaborated with GAO on several
reviews of agency activities.



                      STRATEGIC PLAN FOR THE
                 OFFICE OF THE INSPECTOR GENERAL

INTRODUCTION

       The Office of the Inspector General in the Commodity Futures Trading Commission was
created in accordance with the Inspector General Act of 1978 (P.L. 95-452), as amended by the
Inspector General Act Amendments of 1988 (P.L. 100-504). The DIG was established to create
an independent unit to:

       •   Promote economy, efficiency, and effectiveness in the administration of CFTC
           programs and operations and detect and prevent fraud, waste, and abuse in such
           programs and operations;

       •   Conduct and supervise audits and investigations relating to the administration of
           CFTC programs and operations;




                                                 12
       •   Review existing and proposed legislation, regulations, and exchange rules and make
           recommendations concerning their impact on the economy and efficiency of CFTC
           programs and operations or the prevention and detection of fraud and abuse; and

       •   Keep the Chairman and Congress fully informed about any problems or deficiencies
           in the administration of CFTC programs and operations and provide
           recommendations for correction of these problems or deficiencies.

        Accordingly, the OIG has established three programs to carry out its responsibilities:
audit, investigation, and legislative and regulatory review. A summary of those programs
follows.


AUDIT

        The primary objectives of the OIG are to promote long-term efficiency and effectiveness
in the administration and operation of the Commission and to protect against fraud and abuse.

        The key to effectively and efficiently managing the CFTC is information. Top level
managers and decision makers require a steady stream of organized data on the effects of their
policy decisions and resource allocations on the operations of the Commission. Once having
made the decision to change resource levels or policy, managers must receive accurate and
timely reports of the operational effects of their decision so they can determine if the change is in
the direction and of the magnitude predicted. In the absence of such information, top level
managers cannot adequately perform their jobs.

        A number of obstacles to acquiring and transmitting the desired infonnation to decision
makers may exist in some programs. Principal among them is the Commission's apparent
difficulty in many instances in tracking the progress of a particular action across organizational
lines within the Commission.

        A simple example is the Reparations Program prior to the installation of an OIG
recommended unified, Commission-wide tracking system. Complaints are received and
processed and hearings are held in the Office of Proceedings; appeals of initial decisions in
reparations cases are transmitted to the Office of the General Counsel where proposed
Commission opinions are drafted; and appeals are decided by the Commission with the
paperwork being handled by the Office of the Secretariat. Each office involved in the process
had a separate tracking system without ties to the tracking systems in the offices preceding them
or following them in the process. Each office treated the case as if it were brand new to the
Commission when they received it. As a result, there was no provision for tracking information
across organizational lines. If the Chairman wanted to know how much time was spent on the
average reparations case of a particular description at each stage in the process, that information
was unavailable without an extensive expenditure of manual labor.

        A related problem is the difficulty the Commission has in associating resources devoted
to an activity with the results of that activity. The Commission does a good job of tracking


                                                 13
resources expended. It can determine how much stafftime and material at what cost was spent
in a particular activity. Some Commission organizations can even associate costs with particular
projects. What a program manager may have great difficulty doing, however, is telling a
decision maker that, for a specific level or increase in resources, the program manager will
deliver a specific level of increased output. Without this information from all programs
competing for limited resources, decision makers cannot make reasoned resource allocation
judgments. Decision makers are forced to rely on intuition and anecdotal evidence.

         To increase the efficiency and the effectiveness of the management ofCFTC programs
and operations, the OIG has, and will continue, in addition to conducting mandatory audits,
concentrate its audit resources on the identification of information voids and the lack of
continuity in the flow of information across organizational lines from the beginning of a process
until its conclusion. The DIG will recommend the implementation of any system improvements
where the benefits of implementing the change exceed the costs.

        In addition to our efforts to bring technology to bear on the information requirements of
the Commission, the OIG has begun to focus on the CFTC's use of contractors. As budgetary
issues have reduced the CFTC's ability to acquire new full time employees (FTEs), it has
become more expedient in some situations to hire contractors to perform work formerly
performed by agency staff. This trend toward using contractors, rather than FTEs, appears
especially prevalent in the area of information technology (i.e., telecommunications and
network-related services). The Office ofthe Inspector General believes that ongoing,
independent review will be useful to assure that the use of contractors is cost-effective, that the
use of contractors does not compromise information privacy and security, and that the use of
contractors improves agency performance. As the Commission continues to update and expand
its IT systems, the OIG will devote resources to monitoring agency performance in this area to
insure these concerns are examined and addressed as appropriate.


INVESTIGATIONS

       The Inspector General Act of 1978, as amended, provides that the Inspector General may
receive and investigate complaints or information from the Commission's employees concerning
the possible existence of an activity constituting a violation of law, rules or regulations, or
mismanagement, gross waste of funds, abuse of authority or a substantial and specific danger to
the public health and safety.

        The OIG has to date conducted only a reactive investigative program chiefly relying on
unsolicited employee complaints as the source of investigative leads. This reactive program has
resulted in only a handful of investigations per year. This strategy was followed because the
OIG believed that an independent regulatory agency such as the CFTC, without grant money or
substantial contracts to award, was not likely to generate a substantial investigative workload.

        To insure that employee complaints could easily reach the OIG, a 24-hour hotline was
established in February 1993 to receive complaints. The hotline's existence is publicized on the
back cover of this semiannual report.



                                                 14
       Because of the reactive nature of the OIG's investigative program, no investigative
agenda has been established.


LEGISLATIVE AND REGULATORY REVIEW

        Because of the importance ofthis activity in an economic regulatory agency, the OIG
reviews proposed and final CFTC regulations, legislation, and selected exchange rules using six
basic criteria: Whether the agency: (1) has identified specifically the problem(s) to be addressed
by the proposal; (2) has defined through case study or data analysis a clear link between the
proposed solution and the identified problem(s); (3) has specified clearly the means to
effectively and efficiently enforce the proposal; (4) has assessed the likely efficiency and
effectiveness of alternative solutions; (5) can reasonably document that the proposal will yield
positive net benefits over the long term; and (6) has met the requirements ofthe Regulatory
Flexibility Act and the Paperwork Reduction Act.

        The Regulatory Flexibility Act requires the agency to evaluate the impact of its
regulations on small entities. The Paperwork Reduction Act requires the agency to manage
effectively and efficiently its information collections so that they are the least burdensome
necessary to achieve the stipulated objectives.

        Because the OIG does not initiate legislation or, generally, regulations, the OIG
legislative and regulatory review program is reactive to the legislative and regulatory proposals
developed by others. Accordingly, no independent legislative and regulatory review agenda has
been established.


                                       AUDIT AGENDA

ANNUAL AUDITS

       The following audits are performed on an annual basis.

Audit of Compliance with the Federal Managers' Financial Integrity Act, FMFIA.

       In support of OMB Circular A-123 (Revised), the Inspector General will evaluate,
provide technical assistance, and advise the agency head as to whether the agency's review and
evaluation process was conducted in accordance with the circular's requirements.

Evaluation of the CFTC Information Security Management Act, FISMA.

        The Federal Information Security Management Act requires the Inspector General or his
designee to perform annual independent evaluations of the information security program and
practices of the agency.




                                                15
Audit of CFTC Financial Statements.

        In FY 2002, Congress passed the Accountability of Tax Dollars Act. The Act requires
the CFTC, along with numerous other Federal entities, to have its financial statements audited
annually. To this end, the OIG has engaged a contractor to provide the audit effort required to
enable the contractor to render an opinion on the agency's financial statements for each fiscal
year in accordance with generally accepted auditing standards, Government Auditing Standards,
and OMB Bulletin 01-02.

OTHER AUDITS

        The OIG intends to focus the balance of its audit resources on insuring that the Chairman,
the Commissioners, and program managers have timely, useful information on the progress of
the CFTC's programs in meeting their goals and objectives. For example, emphasis will be
placed on determining whether all managerial levels engaged in a process can track the progress
oftheir various programs. The tracking systems required in many, though not all, programs will
cross formal organizational lines.

        These audits will entail a cataloging and description of all of the manual and automated
systems used by a program to gather information on its use of resources, the results of the
devotion of those resources (including definitions of measurements of accomplishment), and the
reporting of results and associated costs to the upper level managers in the Division and to the
Chairman and the Commissioners. The cataloging of these decision support systems will be
followed by an assessment of whether all concerned officials are timely receiving the
information they require to efficiently allocate resources to those uses which best accomplish the
priorities of the Commission. If any elements are lacking in the information systems, they will
be identified and improvements will be recommended if they can be implemented in a
cost/beneficial manner.

        If recommendations are successfully implemented, the proposed systems should allow
the Chairman, the Commissioners, and concerned program managers to track the progress of a
particular program across organizational lines and to quickly determine the effects, if any, of
changes in policy, procedure, or staffing.

      The first step in accomplishing this goal will be to concentrate on documenting, and
recommending the improvement and/or development of tracking systems in every program
element throughout the Commission.

        In addition to our focus on facilitating the development of an efficient flow of
information throughout the agency, the OIG intends to continue to monitor the agency's use of
contractors, with emphasis on contracts for IT services, to assure that the use of contractors is
cost effective, that the contracts are managed effectively to improve agency performance.

       Finally, the OIG will devote resources to the review of the management and operation of
the agency and compliance with Congressional mandates.




                                                16
RESOURCES REQUIRED

        The OIG estimates that approximately one staff year of effort will be devoted over each
of the next five years to the development of an efficient flow of information throughout the
agency. One staff year will be devoted over each of the next five years to the review of the
agency's use of contractors. One-half staff year of effort will be devoted over each of the next
five years to the compliance audits described above. The "Annual Audits" are expected to
consume approximately one-half staff year per year.



                        CONTACTING THE OFFICE OF THE
                            INSPECTOR GENERAL

        The OIG is located at 1155 21st Street, N.W., Washington, D.C. 20581. The telephone
number is (202)418-5110. The facsimile number is (202)418-5522. The hotline number is
(202)418-5510. Regular business hours are between 8:30 AM and 5:00 PM, Monday through
Friday, except Federal holidays.




                                                17
                                              Table 1
                                 Reports Issued with Questioned Costs
                                 (April!, 2007 - September 30, 2007)

                                                                        Dollar Value
                                                                         Thousands
                                                     Number      Questioned Unsupported

A.   For which no management decision has
     been made by the commencement of the
     reporting period                                   o               o        o
B.   Which were issued during the reporting
     period                                             o               o        o
     Subtotals (A + B)                                  o               o        o
c.   For which a management decision was
     made during the reporting period                   o               o        o
     (1)      dollar value of
              disallowed costs                          o               o        o
     ( ii )   dollar value of costs not
              disallowed                                o               o        o
D.   For which no management decision
     has been made by the end of the
     reporting period                                   o               o        o




                                               18
                                              Table 2
                             Reports Issued with Recommendations
                                That Funds be Put to Better Use
                              (Aprill, 2007 - September 30,2007)


                                                            Dollar Value
                                                   Number    Thousands

A.   For which no management decision has
     been made by the commencement of the
     reporting period                                o              o
B.   Which were issued during the reporting
     period                                          o             ·0

     Subtotals (A + B)                               o              o
c.   For which a management decision was
     made during the reporting period                o              o
     (i)      dollar value of
              recommendations that
              were agreed to by management
                                                     o              o
     ( ii )   dollar value of
              recommendations that
              were not agreed to by
              management                             o              o
D.   For which no management decision
     has been made by the end of the
     reporting period                                o              o




                                              19
       The Inspector General
       needs your help to
       assure the integrity of
       CFTC's programs.



Report FRAUD, WASTE
or ABUSE to the
INSPECTOR GENERAL

HOTLINE
(202)418-5510
    Office of the Inspector General
 Commodity Futures Trading Commission
        1155 21 ST Street, N.W.
        Washington, D.C. 20581
